                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A09070065                                                                       Page I of I




          We assessed an allegation of plagiarism by the Subject l in his NSF proposaL2 The Subject
          admits that his paraphrasing was inadequate. Since the proposal described uses of a particular
          measurement instrument, some of the language is technically constrained. The duplicated
          sections of text are interspersed with original text, and the subject vows to provide more rigorous
          oversight in his future writings to avoid the recurrence of similar issues of insufficient
          paraphrasing. A letter to the Subject with a reminder to adhere to the highest standards of
          scholarship in preparation of proposals should be sufficient to protect NSF interests.


          Accordingly, this case is closed.




          1   Redacted.
         2    Redacted.




NSF OIG Form 2 (11/02)
